No.

IN THE SUPREME COURT OF THE UNITED STATES

In re WILLIAM HENRY HAMMAN

ON PETITION FOR A WRIT OF HABEAS CORPUS

PETITION FOR A WRIT OF HABEAS CORPUS
VOLUME 2 - APPENDIX

WILLIAM HENRY HAMMAN
WILL@FREEWlLL.ROCKS
ALFRED RISIEN HAMMAN
ALFRED@HAMMAN.NET
1209 N. WESTMORELAND DR.
ORLANDO, FL 32804
407-421-9323

FLSC 19-386 Mandamus Pet. 3-8-19 pp. 12,13
“Illegal Testing Requirements”
COUNT 2 - ILLEGAL ENTRANCE TESTING
REQUIREMENTS
UCF requires SAT or ACT results for both math and
english for initial eligibility. (Appendix pg# 1; note #2)
This requirement is in direct contradiction to the black
letter law of Florida Statute 1008.30(1) and Florida
Statute 1008.30(6).
The State Board of Education, in conjunction
with the Board of Governors, shall develop and
implement a common placement test for the
purpose of assessing the basic computation and
communication skills of students who intend to
enter a degree program at any public
postsecondary educational institution. Florida
Statute 1008.30(1)
and
A student may not be enrolled in a college credit
mathematics or English course on a dual
enrollment basis unless the student has
demonstrated adequate precollegiate
preparation on the section of the basic
computation and communication skills
assessment required pursuant to subsection (1)
that is appropriate for successful student
participation in the course. Florida Statute
1008.30(6) (emphasis added)
The “common placement test” developed and
implemented by the State Board of Education referred
to in subsection 1 is clearly the P.E.R.T. test
It is equally clear that subsection 6 requires only the
al

one piece of the P.E.R.T. test which would demonstrate
“adequate precollegiate preparation on the section of
the basic computation and communication skills
assessment” corresponding to either English or math
IF the eligible student elects to take either of those.
This is actually not an initial eligibility requirement at
all, as one is an “eligible student” per Florida Statute
1007.271(13) with the successful completion of the
three conditions in (13)(a). The P.E.R.T. requirement
only comes into enforceable effect in the program
should one elect to enroll in an English or math course,
not before. The choice of an English or math course
could be seen to be necessary jurisdictional elements
for the enforcement of the corresponding P.E.R.T.
assessment test requirement
FLSC 19-386 Mandamus 3-8-19 pp. 18-22
“Cook Confrontation”
COUNT 4 - COUNSELOR COOK’S FRAUDULENT
REPRESENTATION OF LAW AND THE DUAL
ENROLLMENT PROGRAM
Over 2 years ago, we attempted to show Dr. Hitt that
UCF’s policies directly conflicted with Florida
Statutes. We were holding the Department of
Education Dual Enrollment FAQ which does not have
authority over UCF but the 38 times it cites Florida
Statutes do and every bit of the reasoning is valid and
sound and must apply to UCF as well. We were
referred to Counselor Youndy Cook, who
misrepresented the state of law materially in the
following ways:
A) First, she claimed that the word “shall” was not
legally imperative. She said
a2

that since the law we were showing her used the word
“shall” that it just meant that they didnt actually have
to legally provide the program to Will, that the choice
to offer the Dual Enrollment program at all was fully
within their discretion. This is not true
B) Second, she claimed that UCF was not responsible
for providing Dual Enrollment specifically because
UCF was chartered differently than the State
Colleges. This is not true
C) Third, to paraphrase, she claimed that the words
we were reading together did not have plain language
meaning in the context of the law and that we would
basically just have to trust them to tell us what was
right and just and that Will was in fact not legally
eligible. This is not true
D) Fourth, she said that Dual Enrollment courses are
not fully paid for by the School Board through whom
the eligible student took the Dual Enrollment course.
She said that we should seek early admission instead
of Dual Enrollment because those courses were fully
compensated while Dual Enrollment was only funded
at a rate of 2/3. This is not true
E) Additionally, my Dad told her straight up that we
did not agree with her reading and that my task was
to research it and to return if we still disagreed. Let
there be no mistake that we in essence declared that
we would be entering an adjudicative action seeking
relief if her judgement were incorrect. This is true
F)
Saving the worst for last, all of the above are
specific violations of the Rules Regulating The Florida
Bar which clearly show that the actions are in fact
simply acts of fraud if perpetrated by a lawyer
a3

regardless of the underlying fraud or crime. The
Florida Bar says this is true
Count 4 - Argument
First, the above points of fact are not in dispute as the
parties have long ago agreed on all points of fact. In
5D18-2806, the above points were made and none of
them disputed by UCF. It should be noted that
Counselor Cook had inexplicably chosen in 5D-2806 to
be a named attorney in an action in which she was the
stated target of a criminal conspiracy investigation
with charges stemming from individual acts and acts
in conspiracy with other named defendants, attorneys
Schachter and Muldowney
The R.R.T.F.B. 4-3.3(b) shows that each of UCF’s
actions particularized in counts 4-6 are fraudulent
themselves, as they are acting in furtherance and
fraudulent deception covering up the underlying 14
year old Dual Enrollment Fraud. The R.R.T.F.B.
4-3.3(b) specifies what should have been done
immediately upon being shown controlling legal
authority if they had been simply unaware until that
moment. Law demanded that she inform the Board of
an immediate need for change in policy in order to
fulfill her ministerial duty of ensuring that UCF
operates “within law” Florida Statute 1001.706(1). Not
participate in an arbitrary abuse of rights for students
and citizens nor a direct abuse of the Board of
Governors
A lawyer shall not counsel a client to engage, or
assist a client, in conduct that the lawyer knows
or reasonably should know is criminal or
fraudulent R.R.T.F.B. 4-1.2(d) (emphasis added)

a4

Counselor Cook &/or UCF have clearly crossed the line
from legal representative to defrauder of millions of
children’s rights, since each 6-12th grader in the state
has a legal right to attend UCF if eligible under the
Dual Enrollment program, as there are no limits on
which Florida public post-secondary institution anyone
chooses to participate in the program through,
regardless its location nor the student’s home county.
Additionally, she clearly
failfed] to disclose a material fact to a tribunal
when disclosure is necessary to avoid assisting a
criminal or fraudulent act by the client;
R.R.T.F.B. 4-3.3(a)(2)
As well as having
fail[ed] to disclose to the tribunal legal authority
in the controlling jurisdiction known to the
lawyer to be directly adverse to the position of
the client R.R.T.F.B. 4-3.3(a)(3)
My dad and I do testify on pain of perjury that we did
in fact make controlling legal authority known to
counselor Cook which is cited and quoted in the FAQ,
which means that she had then an indisputable legal
responsibility to act upon as
A lawyer who represents a client in an adjudicative
proceeding and who knows that a person intends to
engage, is engaging, or has engaged in criminal or
fraudulent conduct related to the proceeding shall take
reasonable remedial measures, including, if necessary,
disclosure to the tribunal R.R.T.F.B. 4-3.3(b)
(emphasis added) early as Spring 2016 while more
than 1.5 million childrens’ rights indisputably went
abused since that time.
a5

What began as a quest for the education for which I
was legally eligible has turned squarely into a fraud
investigation of epic proportion
These agreed-upon events show a new level of malice
in the mens rea (or criminal intent) of the criminal,
Counselor Cook and/or the Board of Trustees.
Remember that mens rea, or criminal intent, of the
Dual Enrollment Fraud already exists in the form of
the building slush-fund (as the E&G account was
treated.) Mens rea is now completely explicit, overt,
and indisputable. Which proves that each day of
deprived rights beyond this moment were
premeditated and done with malice aforethought.
FLSC 19-386 Mandamus 3-8-19 pp. 22-24
“Illegally Changing Disputed Policy Mid-Trial”
COUNT 5 - UCF DEFRAUDING THE LEGAL
SYSTEM
There just don’t seem to be words for how wrong this
is. To change official university policy concerning a
program directly governed directly by statute in order
to cover up long term fraud is unconscionable enough.
UCF circumvented and defrauded the process of law
by changing policy just enough to avoid a loss from a
case which was a ministerially-promised win. This is
beyond my ability to comprehend, account for, nor
properly score from a legal standpoint. UCF’s
Counselor Cook appears to effect such change herself
in procedures which are countermanded by black letter
law, as the power is solely vested in the Board to make
and or enforce any additional policy for the program
per Florida Statute 1007.271(3)

a6

For her to destroy UCF Board credibility by betraying
what was a sacred trust is utterly incomprehensible.
The fact that she abused through fraud all of these
childrens’ fundamental rights to education specifically
granted by legislature and statute for the glory of the
game is the sinister act of a true monster
Appendix pg# 1 (just before Note 1) clearly shows that
the policy which we sought the mandamus for,
eligibility for Home Education students, (which again,
was a ministerial grant) has been changed on the web
site to now allow what we sought relief for but still
includes hurdles every bit as easily sussed out as being
illegal.
Again, this claim in entirety was put forward in
5D18-2806, and all points of fact were procedurally
agreed upon in that case by UCF in pleadings which
include
Counselor Cook as a listed lawyer. Their only objection
to a set of events whose substance was agreed upon
was that the conversation in which they took place
occurred a while ago and shouldn’t count in this
action. This is as incorrect as it sounds on it’s face
The mens rea of this crime is self-evident. That is to
say, Counselor Cook is a good lawyer. Very good. I’ve
been told by previous adversaries of hers to tread
lightly around her and be very careful, as she is
dangerous. This is true. It is indisputably her
professional and legal responsibility to know all of the
points of law and legal ramifications surrounding all
relevant issues.
She knew that these actions were criminal prior to and
while she perpetrated them. She had to. Literally, as it
is her oath-sworn duty to this court, the Supreme
a7

Court of Florida with it’s integrated Bar, to do. There
is no way that she did not have the requisite specific
knowledge of the illegality of this act - before, during,
or a single moment since. She is a good lawyer. Very
good.
FLSC 19-386 Reply to Response 3-22-19 pp. 7-10
“Fraudulent Use of Entrusted Police Force”
In the near future we will be able to lean on the
testimony of two of UCF’s finest. Sergeant Robby and
officer Augustin.
They will testify (and the video from the room cameras
will confirm) that they approached me only after i
went to talk to the press and give them copies of the
petition. They are good and honorable men and i will
bet everything that they will testify that i quietly
asked them what seemed to be the issue. They
answered that they had received a complaint that i
intended to attempt to give President Seymour papers.
I quietly responded that this was not at all true and
first and foremost told them that i would comply with
their request. I next asked them politely if we might
continue this conversation outside, then i did politely
and explicitly refuse to take any further risk that my
presence be a disruption, including speaking another
word, i motioned politely toward the closest door.
Officer Augustin exited swiftly and Sargeant Robby
motioned for me to follow, I did speak again to beg
Robby to go next (and it was their insistence that we
be on first name and familiar basis,) because I’m old
and crippled and i begged to get this show outside as
fast as possible. I was and will be forever grateful that
Robby heard my humble prayer and hustled out
leaving me to follow which i doubt is SOP for an officer
in such a situation.
a8

Through tears of gratitude in the dark i remember
fighting through tears of rage as the gravity of what
had happened set in. I truly cannot tell you how
incredible both these men were in this moment. I was
trying to get my head around how to tell them, two
really nice guys who i DEFINITELY want to take out
for tacos, that they had just been tricked into joining
the biggest criminal fraud of their professional career.
Now i am battle-oath-sworn to tell the police, the
people with guns and badges and properly entrusted
with the arrest privilege; that i am charging them with
a unimaginable crime. Perfect. This is going to go
great. Then i realize that Ava & Will have their bets
placed on “will get arrested”, so i kind of laugh.
So, to recap:
My old Chum has lied to two of UCF’s finest and made
me seem like some sort of deranged lunatic there to
attack President Seymour with a small stack of paper.
Then my unfortunate defense response of laughing at
inappropriate times has conspired with my old Chum
to gaslight me to them. Now the trap Chum has set
requires me to charge them with heinous crimes and
ask them to preserve the specific words spoken to
them and their understandings of these words in
context with the crime. AND these are nice guys, so
now i am literally apologizing to them for having to
arrest me, which was weird. And i motioned for officer
Augustin to turn on his body camera, which i was
grateful to hear chirp on. Because i at least wanted a
record if i was about to get screwed, again. BOHICA.
But, whatever.
Then something happened that shocked even my old
jaded self

a9

They allowed me to restate my charges with the body
cam rolling.
They completely calmly allowed me to tell them
exactly how they had been used to fraudulently deny
my access to the Board meetings. They allowed me to
assert that they had been bed to about my intent,
because i had sworn in testimony before the Supreme
Court that i would not attempt to inform President
Seymour about this action. They allowed me to
apologize to them for all of this, and i clearly
remember saying that i understand that they have a
job to do and its a tough one. I clearly remember them
blessing me with the opportunity to humbly beg that
they appreciate that i was in exactly the same position
as they. I said I've just got a job to do too. And it is a
tough job, overseeing the Board of Trustees but that it
is my sacred right and responsibility do so and i have
every legal right to have been there and that they were
used to further the fraud.
Now i am certain that video footage which i could not
have yet seen includes Robby, the Sargent, agreeing
and admitting that i did in fact have every right be
where i had been doing what i had been doing, but
that he had been told that i had to leave. So i told
them my deepest prayer is for them to see me as friend
of theirs and of UCF’s, because I’ve got a job to do and
i WOULD be around A LOT because it is MY
UNIVERSITY which is being fraudulently managed
with my funds. They completely agreed and made sure
to send me on my way with a bottle of water because
they still were worried about me being good and
healthy and safe.
These two men are credits to the badge and i am
honored that they are truly Knights
alO

FLSC 19-386, 3-25 Appendix
“email to Reps. Oliva, Eskamani & Smith”
March 24, 2019 Speaker Oliva,
The previous charges of lack of candor by UCF must be
amended.
On Monday March 18 we brought serious charges
before this panel that UCF has been less than
forthright and transparent with this panel in that
there is at least a credible threat of UCF being found
guilty of fraudulently putting funds in the ‘left- over
E&G fund” bucket from which Colbourn Hall was
built.
The suits will be successful. It is ministerially
demanded that the Supreme Court grant the
underlying relief; those three counts we refer to as the
underlying fraud. That is because it meets the
pleading standards for mandatory relief in mandamus.
Mandamus may lie in relief when the petitioner has a
right to demand the relief sought, the respondent has
a duty to perform the relief sought, and there is no
other available remedy. The three underlying counts
clearly meet such standards, therefore the Justices
may grant the Order to Show Cause why such relief
ought not be granted. This means that a “prima Facie”
case for such relief has been shown to a Judge and
that Judge may order the respondent to answer the
petition. If the respondent does not answer
successfully, relief is granted.
Mandamus is a “discretionary writ”. This means that a
Judge presented with a petition for relief in
mandamus which meets the above requirements may
grant such relief if they choose to do so. It is within
all

their discretion to do so, and it is also within their
discretion to not. This is called “Judicial discretion”
The unique thing about Mandamus, an ancient form of
relief which comes from the Magna Carta, is that it
turns justice on it’s head. These, the common law
extraordinary writs, were turned against the king in
the 1200’s and are the foundation of our legal system
and guarantees of liberty from arbitrary, or
tyrannical, rule. These writs are how democracy holds
the government accountable. They are plenary,
absolute.
In even more rare circumstances, relief through a Writ
of Mandamus becomes a direct constitutional right.
That is to say that any Judge presented with a facially
sufficient petition for mandamus demanding relief
which is written in a valid Florida Statute must issue
the Writ. The Writ of Mandamus is a discretionary
writ, but that discretion is judicial, not arbitrary. And
judicial discretion demands that a petition demanding
such explicitly guaranteed relief must be granted, even
though it is still discretionary. (For the record, we are
humbled that the 5DCA broke this law in the interest
of justice to move this case up. See Topps. We look
forward to learning how to clean up our mess with
them)
It is fraud because UCF has clearly been deceptively
denying minors their explicit rights as granted in the
black letter of 1007.271.
It is criminal fraud because it also meets the pleading
standards for such as Will clearly laid out in his
Supreme Court petition in common language before he
got laid out sicker and i had to start doing the writing.
a!2

But i ONLY brought the sole charge of lack of candor
that they didnt tell the panel about this action which
is a sufficient threat to have warranted such disclosure
out of the other side of their mouth while they were
• proclaiming transparency and candor before this panel
last week. This omission of a lawsuit which is
ministerially granted on counts 1-3 with it’s claimed
implications should be proof of a lack of candor to this
panel.
Now i bring serious charges of fraud showing malice
aforethought before this panel.
Also on March 18, i filed our 2nd supplemental which
clearly stated my intentions and the boundaries which
i accepted and swore to on pain of perjury before the
Supreme Court. The video evidence from the in-room
surveillance cameras will clearly show i did exactly
and only what i stated that i would - no more and no
less. It is MY university now.
I am a citizen. It was ALWAYS my university, i have
always had the right and responsibility to oversee this
investment made on my behalf in the Florida
Sunshine. The video evidence will show that i did
exactly and only that.
My 2nd supplemental could not be more clear nor
specific. The context of the entire case supports this as
well. I agreed to UCF’s (unreasonable) demands at
how i will conduct myself in relation to certain public
offices, officers in their official capacity and persons
who fill those roles personally. But i clearly voluntarily
bind myself to the agreement counselor Muldowney
demanded in the email from last Thursday, the same
day that the panel report gave UCF a “Charge ON, live
& learn” mulligan because they were operating with a
new spirit of disclosure and candor
a!3

